        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Evaluation Report
The Department's Unclassified
Cyber Security Program - 2008




DOE/IG-0801                      September 2008
                               Department of Energy
                                    Washington, DC 20585
                                 September 1 6 , 2008



MEMORANDUM FOR

FROM:
                         Inspector General

SUBJECT:                 IIVFORMATION: Evaluation Report on "The Department's
                         Unclassified Cyber Security Program - 2008"

BACKGROUND

The Department of Energy anticipated spending about $250 million in Fiscal Year (FY)
2008 to implement cyber security measures necessary to protect its information
technology resources - systems and data critical to supporting its mission and business
lines of energy security, nuclear security, scientific discovery and innovation,
environmental responsibility, and management excellence. Security challenges and
threats to the Department of Energy's information systems are continually evolving.
Adversaries routinely attempt to compromise its information technology assets. As these
attacks become increasingly sophisticated, it is critical that the Department's cyber
security protective measures keep pace with the growing threat.

The Federal Information Security Management Act (FISMA) provides direction to
agencies on the management and oversight of information security risks, including design
and implementation of controls to protect Federal information and systems. As required
by FISMA, the Office of Inspector General conducts an annual independent evaluation to
determine whether the Department's unclassified cyber security program adequately
protects its information systems and data. This memorandum and the attached report
present the results of our evaluation for FY 2008.

RESULTS OF EVALUATION

The Department continues to make incremental improvements in its unclassified cyber
security program. Our evaluation disclosed that various sites had taken action to address
weaknesses previously indentified in our FY 2007 evaluation report by strengthening
configuration management of networks and systems and by updating local policies and
procedures related to laptop computers and incident reporting. Further, the Office of
Chief Information Officer, the National Nuclear Security Administration (NNSA), and
program elements had recently issued revised policy that provided direction on
management, operating, and technical security controls; and, officials had taken action to
incorporate Federal cyber security perfonnance requirements into a number of
management and operating contracts. While these are positive accomplishments,
additional action is required to further enhance the Department's unclassified cyber
security program and help reduce risks to its systems and data. For example, our current
review identified opportunities for improvements in areas such as certification and



                                 639   Printed with soy ink on recycled paper
accreditation (C&A) of systems; systems inventory; contingency planning; and,
segregation of duties. Weaknesses that merit further attention include -thefollowing:

       A number of C&A issues had been addressed, but problems, particularly in the
       areas of assessing risks and ensuring the adequacy of security controls, had not
       been completely resolved;

       Site-level inventories were generally comprehensive and various automated
       inventory tools had been piloted, however, a system for maintaining a centralized,
       Department-wide inventory of information systems had not been completely
       deployed;

       Contingency planning had improved, yet some sites had not completed actions
       necessary to ensure that system operation could be resumed in a timely manner in
       the event of a major disruption to services;

       Actions to address cyber incident response issues had been initiated but were not
       yet complete;

       In some instances, risks to systems had not always been fully assessed to provide
       assurance that personally identifiable information was adequately protected from
       loss or unauthorized disclosure; and,

       While many previously identified vulnerabilities in access controls, configuration
       management and separation of duties had been resolved, we found that
       weaknesses in these areas continued to exist at various sites.

Similar to our observations during past evaluations, these internal control weaknesses
existed, at least in part, because not all Department program organizations, including the
NNSA, had revised and implemented policies incorporating Federal and Departmental
cyber security requirements in a timely manner. Program officials had also not
effectively performed management review activities essential for evaluating the adequacy
of cyber security performance. In some cases, officials had not ensured that weaknesses
discovered during audits and other examinations were recorded and tracked to resolution.
As a consequence, the risk of compromise to the Department's information and systems
remained higher than necessary.

To assist the continuing efforts to improve, we made several recommendations designed
to help strengthen the Department's unclassified cyber security program and thereby
protect its computer resources from unauthorized modification, loss, or disclosure of
information.

Due to security considerations, information on specific vulnerabilities and locations has
been omitted from this report. Management officials at the sites evaluated were provided
with detailed information regarding identified vulnerabilities, and, in many instances,
initiated corrective actions.
MANAGEMENT REACTION

Management concurred with our findings and recommendations. Management's
comments are included in their entirety in Appendix 3.

Attachment

cc: Acting Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Science
    Under Secretary of Energy
    Chief of Staff
    Chief Information Officer
EVALUATION REPORT ON THE DEPARTMENT'S UNCLASSIFIED
CYBER SECURITY PROGRAM - 2008


TABLE OF
CONTENTS


Unclassified Cyber Security Program

Details of Finding ....................................................................................................1

Recommendations and Comments...........................................................................9

Appendices

1.    Objective, Scope, and Methodology ..............................................................11

2.    Prior Reports...................................................................................................13

3.    Management Comments.................................................................................17
Unclassified Cyber Security Program

Program                   The Department of Energy (Department or DOE) continued
Improvements              to make progress in enhancing its unclassified cyber
                          security program and addressing previously identified
                          cyber security weaknesses. For instance:

                             •   Various sites took steps to correct previously
                                 identified weaknesses by strengthening system
                                 access controls and configuration management,
                                 implementing segregation of duties, developing
                                 contingency plans, and updating local cyber
                                 security policies and procedures;

                             •   Although not fully implemented, the Office of Chief
                                 Information Officer (OCIO), the National Nuclear
                                 Security Administration (NNSA), and the Office of
                                 the Under Secretary had recently issued revised
                                 policy that provided direction on management,
                                 operating, and technical controls;

                             •   NNSA and program elements incorporated Federal
                                 cyber security requirements into a number of
                                 management and operating contracts;

                             •   Action had been initiated to eliminate duplicative
                                 incident response capabilities; and,

                             •   Finally, a formal working group was established to
                                 ensure that Department cyber security guidance
                                 complied with National Institute of Standards and
                                 Technology (NIST) guidance.

Managing Cyber            The Department continued to improve the management of
Related Risk              its cyber security program. However, additional action is
                          needed to reduce the risk of compromise to information
                          systems and data. In particular, weaknesses continued to
                          exist in the Department's certification and accreditation
                          (C&A) process, systems inventory, contingency planning,
                          cyber security incident management, and privacy
                          information controls. These processes are essential for
                          ensuring a comprehensive and effective risk management
                          strategy for protecting information technology systems and
                          data.

                                        Certification and Accreditation

                      System C&A are critical activities that support a risk
                      management process and are an integral part of an
________________________________________________________________
Page 1                                                       Details of Finding
                           agency's information security program. A strong and
                           comprehensive process is necessary to ensure that agency
                           officials have the most complete, accurate and trustworthy
                           information possible on the security status of their
                           information systems in order to make informed decisions
                           on whether to authorize their operation. However, our
                           evaluation revealed weaknesses in the process at three sites.
                           We also noted that problems identified at four other sites
                           during our Fiscal Year (FY) 2006 evaluation had not yet
                           been completely corrected. Specifically:

                              •   System security plans at five sites were missing
                                  essential components such as descriptions of
                                  mandatory security controls. This information is
                                  necessary for management to determine that all
                                  systems risks have been fully considered and
                                  mitigating controls are in place, as necessary;

                              •   Required annual self-assessments of mandatory
                                  security controls had not been performed at four
                                  sites. Such assessments allow management to
                                  identify deficiencies in security controls and the
                                  extent to which corrective actions are necessary;

                              •   Independent assessments of security controls had
                                  not been adequately performed in conjunction with
                                  the certification process at four sites. Such
                                  assessments help provide assurance of the adequacy
                                  of security controls;

                              •   Testing of security controls at one site was not
                                  adequate, in that it did not incorporate an evaluation
                                  of certain mandatory security controls. Inadequate
                                  testing could potentially result in undetected cyber
                                  security weaknesses; and,

                              •   Two sites had not yet completed C&A for certain
                                  systems, a deficiency first reported in FY 2006.

                                                Systems Inventory

                      Despite a longstanding need, the Department had not yet
                      established a complex-wide inventory of information
                      systems. Agencies are required to develop an inventory
                      that includes an identification of the interfaces between
                      each system and all other systems or networks, including
                      those not operated by or under the control of the agency.
________________________________________________________________
Page 2                                                         Details of Finding
                      Per Office of Management and Budget (OMB) guidance,
                      self-reporting of contractor systems or networks used or
                      operated by a contractor on behalf of an agency without
                      agency verification or validation by the agency is not
                      sufficient. If properly implemented, an automated asset
                      management system could assist the Department in not
                      only Federal Information Security Management Act
                      (FISMA) reporting, but also in areas such as risk
                      management, capital planning, and configuration
                      management.

                      To meet FISMA reporting requirements, the Department's
                      current systems inventory process consists of an annual
                      data call to sites and organizations, resulting in inventory
                      information that is received too late to be adequately
                      verified or validated complex-wide. Such information also
                      does not identify interfaces between each system and all
                      other systems or networks, including those not operated by
                      or under the control of the agency. As a substitute for the
                      annual data calls, the Department has initiated an effort to
                      deploy several FISMA reporting tools with capabilities to
                      capture systems inventory information. However, this
                      initiative, begun in FY 2007, had not been completed.
                      While viewed as an incremental step by one Department
                      official, another noted that the tools would not provide the
                      benefits of a fully automated complex-wide asset
                      management system, including actual identification of
                      system connections and timely configuration and patch
                      management capabilities.

                             Contingency and Disaster Recovery Planning

                      Although contingency planning processes at several sites
                      improved, we found that other sites had not initiated or
                      completed actions necessary to ensure that critical
                      operations could be recovered or established at a secondary
                      processing location in the event of a major disruption of
                      services. Specifically, our evaluation disclosed problems
                      with contingency plans at three sites. For instance, one site
                      had not adequately developed and tested its contingency
                      plans. Had it done so, this site would most likely have
                      determined that it's primary and secondary processing
                      locations were interdependent, as well as in close proximity
                      to each other and therefore subject to the same hazards.




________________________________________________________________
Page 3                                            Details of Finding
                                      Cyber Incident Management

                      We noted that individual program and cyber incident
                      response organizations were not required to adhere to a
                      coordinated/common approach for incident reporting. As a
                      consequence, incident reports reaching the Department's
                      Computer Incident Advisory Capability lacked essential
                      elements for reporting to law enforcement and subsequent
                      analysis for trending. Also, in the event of a multi-site
                      cyber attack on the Department's networks and systems,
                      this reporting environment made it difficult for the
                      Department to develop a coordinated response. These
                      issues were highlighted in our report on The Department's
                      Cyber Security Incident Management Program (DOE/IG-
                      0787, January 2008). To the Department's credit, when we
                      informed management of these issues, corrective actions
                      were initiated. Specifically, a comprehensive plan is now
                      underway to implement an Enterprise Incident Capability
                      to eliminate duplicative activities and improve incident
                      management. Management had established a target date of
                      December 31, 2008, for eliminating this duplication.

                                     Privacy Information Controls

                      Although progress had been made, the Department had not
                      fully assessed the risk to personally identifiable information
                      (PII) on its systems and provided assurance that
                      information collected and maintained was adequately
                      protected from loss or unauthorized disclosure. The
                      protection of PII in Federal systems is critical because its
                      loss or disclosure can lead to serious consequences to
                      individuals, such as identity theft. During the evaluation,
                      we observed that the Department had completed, approved,
                      and posted privacy impact assessments for a number of
                      systems that collect and maintain privacy information, in
                      accordance with OMB direction. However, we also noted
                      that, privacy impact assessments of certain systems either
                      had not been performed or were missing key information
                      for providing assurance of adequate protection.
                      Specifically, one Department organization had not
                      completed and submitted privacy impact assessments for
                      approval by the Chief Privacy Officer, despite having
                      systems that collect and maintain such information. Also,
                      approved privacy impact assessments for other Department
                      organizations were missing necessary information. This
                      information should have been supplied at the time of
                      approval, since it was necessary to provide the level of
________________________________________________________________
Page 4                                            Details of Finding
                      assurance that risks had been properly assessed and
                      protective measures were adequate. We also noted that
                      content on a number of the Department's publicly
                      accessible web servers was not always controlled and
                      periodically reviewed. These weaknesses contributed to a
                      number of incidents that involved the exposure of PII to
                      unauthorized or malicious sources.

Security Controls     The Department had not resolved certain previously
                      identified weaknesses at several sites in the area of
                      configuration management. We also identified new
                      weaknesses in segregation of duties and access control
                      areas at other sites. Controls such as these are vital for
                      preventing unauthorized access and modification to
                      systems or information. Our testing did confirm that a
                      number of previously reported cyber security control
                      deficiencies had been corrected.

                                            Access Controls

                      While sites corrected access control problems identified
                      during our previous evaluations, work performed this past
                      year has disclosed new weaknesses at three sites. Access
                      controls consist of both physical and logical measures
                      designed to protect information resources from
                      unauthorized modification, loss, or disclosure. To ensure
                      that only authorized individuals can gain access to
                      networks or systems, controls of this type need to be strong
                      and functional. However, we noted the following:

                         •   At one site, an administrator of a financial system
                             was granted excessive privileges that were not
                             required to perform assigned duties. These
                             excessive privileges, if exploited, could permit
                             unauthorized modification to the system or
                             information. Passwords for this system were also
                             not of sufficient strength;

                         •   At the same site, insufficient reviews were
                             performed of user access to the network. Such
                             reviews are essential to determine whether users
                             who no longer have a valid need for information
                             resources because of job changes or resignations
                             have their access removed in a timely manner;

                         •   Another site allowed excessive login attempts on its
                             network, thereby limiting the ability to prevent
________________________________________________________________
Page 5                                            Details of Finding
                             unauthorized access through repeated password
                             guessing; and,

                         •   A third site allowed unsupervised foreign visitors to
                             use their laptops while connecting to the site's
                             Intranet. Such connection could have permitted
                             individuals to probe the site's network for
                             vulnerabilities, implant malicious code, or remove
                             data without authorization.

                                         Segregation of Duties

                      One site did not maintain adequate segregation of duties on
                      a financial system. Proper segregation of duties reduces the
                      risk of fraudulent activities by separating personnel
                      activities through operating procedures, supervision, and
                      review. Specifically, application developers had access to
                      the production portion of the financial system, which could
                      enable them to introduce untested or unapproved changes
                      to the system. Furthermore, the site had not enacted the
                      compensating control of management review and approval
                      of developer activities.

                                      Configuration Management

                      We continued to identify configuration management issues
                      in the Department. Controls of this type are an integral
                      component of a strong security policy and help to ensure
                      that computer applications and systems are consistently
                      configured with minimum security standards to prevent and
                      protect against unauthorized modifications. Our evaluation
                      identified weaknesses at a number of the Department's
                      sites. Specifically:

                         •   Two sites were using versions of application and
                             operating system software that were outdated or not
                             appropriately patched. If software with known
                             vulnerabilities is not updated in a timely manner,
                             risk increases that systems could be compromised;

                         •   A number of Department sites or organizations had
                             not disabled unneeded computer services for their
                             publicly accessible websites. These services
                             increased the risk of malicious damage to these
                             websites;


________________________________________________________________
Page 6                                            Details of Finding
                         •   Although the Department had developed and
                             published policy requiring the adoption of standard
                             desktop configurations, including standard security
                             settings, certain organizations and sites had not yet
                             implemented the protective measures;

                         •   At one site, a financial system was not set to log
                             account administration activity, an essential control
                             which permits management reviews; and,

                         •   Security controls at another site on most computers
                             assigned to foreign nationals from non-sensitive
                             countries were not implemented. This problem
                             could enable users to modify log-on settings, load
                             unauthorized software, remove installed software,
                             change computer settings, and ultimately permit
                             unauthorized access to the site's information
                             systems.

Cyber Security        The problems identified occurred, at least in part, because
Program Management    NNSA and certain Department program elements had not
                      revised and implemented policies and guidance
                      incorporating Federal and Departmental cyber security
                      requirements in a timely manner. They also had not
                      effectively performed review and oversight activities
                      essential for evaluating the adequacy of cyber security
                      performance, and had not ensured that Plans of Action &
                      Milestones (POA&M) were used effectively.

                        Cyber Security Policy Development and Implementation

                      Department elements did not act in a timely manner to
                      revise and issue policies and guidance to incorporate
                      Federal and Departmental cyber security requirements, thus
                      limiting their use by sites and organizations during FY
                      2008. For instance, NNSA did not approve its Policy
                      Letters until May 2008, eight months into FY 2008. An
                      NNSA official told us that site implementation could not be
                      expected until sometime in FY 2009. Also, recently issued
                      cyber security incident reporting guidance does not fully
                      address reporting issues and coordination issues facing the
                      various cyber intrusion and analysis organizations and does
                      not specifically require that incidents be reported to law
                      enforcement or counterintelligence officials. Clear
                      policies, with timely implementation, are necessary to
                      ensure that a consistent baseline exists for monitoring
                      performance.
________________________________________________________________
Page 7                                            Details of Finding
                                         Management Review

                      As with last year's evaluation, various levels of Department
                      management had not effectively performed review and
                      management activities essential for evaluating the adequacy
                      of cyber security performance, and had not ensured that
                      POA&Ms were always used effectively. For instance, as of
                      August 2008, 33 reviews of C&A packages had been
                      conducted by a compliance team for the OCIO. However,
                      an official indicated that the compliance team had not
                      published or provided feedback to the submitting
                      organizations regarding the reviews. Also, the Office of
                      Science discontinued its site assisted visits process. This
                      process had been established to increase the effectiveness
                      of the security program and to address findings in prior
                      evaluation reports. When asked about a replacement for
                      the process, an official indicated that an agreement would
                      be explored with the Office of Cyber Security Evaluations
                      to assist in performing this function.

                      Despite concurring with a prior OIG recommendation,
                      NNSA had taken only limited action to establish an
                      oversight process to ensure effective implementation of
                      Federal cyber security requirements by field organizations
                      and facility contractors. An official indicated that NNSA
                      was in the process of changing their site assessment
                      program. While four assessments had been completed by
                      NNSA, no additional ones had been scheduled. We also
                      noted problems in the manner that certain of these
                      assessments were performed. For instance, one assessment
                      cited significant weaknesses that required resolution, but
                      nonetheless granted a passing score.

                      We also noted ongoing problems regarding the use of
                      POA&Ms as a management tool for tracking all known
                      cyber security weaknesses to resolution. As noted in NIST
                      guidance, POA&Ms are important for managing an entity's
                      progress towards eliminating gaps between required
                      security controls and those that are actually in place. The
                      Department concurred with the recommendations in our
                      Evaluation Report on The Department's Unclassified Cyber
                      Security Program - 2007 (DOE/IG-0776, September 2007),
                      and indicated that it would ensure that POA&Ms would be
                      utilized as a tool for prioritizing corrective actions and
                      tracking all known cyber security weaknesses to resolution.
                      However, we observed that this action had not been
                      adequately implemented. Specifically, we found that the
________________________________________________________________
Page 8                                            Details of Finding
                         POA&Ms did not contain all cyber security weaknesses
                         identified by the Office of Health, Safety and Security,
                         Office of Inspector General, and the Government
                         Accountability Office. Until the POA&Ms capture all
                         identified weaknesses, they will not be an effective tool for
                         reporting, prioritizing, and resolving vulnerabilities such as
                         those identified in this report. Furthermore, we also
                         determined that 27 percent of the weaknesses identified
                         were about one year beyond their projected remediation
                         dates.

Threats to Information   During FY 2008, the Department took a number of positive
Technology Assets        and proactive steps designed to improve its cyber security
And Data                 program. As recognized by senior Department officials,
                         such action is necessary to protect systems and the
                         information they contain from increasingly sophisticated
                         and persistent attacks. The importance and need for
                         sustained action is well demonstrated by the increases in
                         reported cyber security incidents across the complex.
                         Despite strong defense-in-depth network protective
                         measures, and with over a month remaining in FY 2008 at
                         the time of our evaluation, sites had reported 480 cyber
                         security incidents affecting 703 machines to the
                         Department's Computer Incident Advisory Capability. This
                         represents an increase of about 45 percent over the prior
                         year and about 136 percent since 2004. In addition, 127
                         incidents involved PII, an increase of about 165 percent
                         from those reported in FY 2007.


RECOMMENDATIONS          To correct the weaknesses identified in this report and
                         improve the effectiveness of the Department's cyber
                         security program, we recommend that the Department and
                         the NNSA Chief Information Officers, in coordination with
                         the Under Secretaries for Energy and Science, as
                         appropriate:


                            1. Correct, through the implementation of
                               management, operational, and technical controls,
                               each of the specific vulnerabilities identified in this
                               report;

                            2. Ensure that development and implementation of
                               cyber security policies, including Program Cyber
                               Security Plans, are in accordance with appropriate
                               Federal and Departmental requirements;
________________________________________________________________
Page 9                              Recommendations and Comments
                         3. Strengthen the management review process to
                            include:

                               •   Better monitoring of field sites to ensure the
                                   adequacy of cyber security program
                                   performance, and,

                               •   Utilizing the POA&Ms for capturing and
                                   tracking all known cyber security
                                   weaknesses to completion.


MANAGEMENT           The Department and NNSA agreed with the information
REACTION             contained in the report and concurred with each of the
                     specific recommendations. Management added that it
                     would take corrective action on specific findings and
                     continue to work to improve its cyber security posture.


AUDITOR              Management's comments are generally responsive to our
COMMENTS             recommendations.


                     .




________________________________________________________________
Page 10                             Recommendations and Comments
Appendix 1

OBJECTIVE             To determine whether the Department of Energy's
                      (Department) Unclassified Cyber Security Program
                      adequately protected data and information systems.


SCOPE                 The evaluation was performed between February 2008 and
                      September 2008 at numerous locations. Specifically, we
                      performed an assessment of the Department's Unclassified
                      Cyber Security Program. The evaluation included a limited
                      review of general and application controls in areas such as
                      entity-wide security planning and management, access
                      controls, application software development and change
                      controls, and service continuity. Our work did not include
                      a determination of whether vulnerabilities found were
                      actually exploited and used to circumvent existing controls.
                      The Office of Independent Oversight performed a separate
                      evaluation of the Department’s Information Security
                      Program for National Security Systems.


METHODOLOGY           To accomplish our objective, we:

                         •   Reviewed applicable laws and directives pertaining
                             to cyber security and information technology
                             resources such as the Federal Information Security
                             Management Act, Office of Management and
                             Budget Circular A-130 (Appendix III), and DOE
                             Order 205.1A Department of Energy Cyber
                             Security Management;

                         •   Reviewed applicable standards and guidance issued
                             by the National Institute of Standards and
                             Technology;

                         •   Reviewed the Department's overall cyber security
                             program management, policies, procedures, and
                             practices throughout the organization;

                         •   Assessed controls over network operations and
                             systems to determine the effectiveness related to
                             safeguarding information resources from
                             unauthorized internal and external sources;

                         •   Evaluated selected Headquarters' offices and field
                             sites in conjunction with the annual audit of the


________________________________________________________________
Page 11                           Objective, Scope, and Methodology
Appendix 1 (continued)

                             Department's Consolidated Financial Statements,
                             utilizing work performed by KPMG LLP, the Office of
                             Inspector General (OIG) contract auditor. OIG and
                             KPMG work included analysis and testing of general
                             and application controls for systems as well as
                             vulnerability and penetration testing of networks; and,

                         •   Evaluated and incorporated the results of other cyber
                             security review work performed by OIG, KPMG, the
                             Department's Office of Independent Oversight, and the
                             Government Accountability Office.

                      The evaluation was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits. Those standards require that we plan and perform the
                      effort to obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our finding and conclusions based on our
                      objective. We believe that the evidence obtained provides a
                      reasonable basis for our finding and conclusions based on our
                      objective. Accordingly, we assessed significant internal
                      controls and the Department's implementation of the
                      Government Performance and Results Act of 1993 and
                      determined that it had established performance measures for
                      unclassified cyber security. Because our evaluation was
                      limited, it would not have necessarily disclosed all internal
                      control deficiencies that may have existed at the time of our
                      evaluation. We did not rely solely on computer-processed data
                      to satisfy the objective of the evaluation. However, computer-
                      assisted audit tools were used to perform probes of various
                      networks and drives. We validated the results of the scans by
                      confirming the weaknesses disclosed with responsible on-site
                      personnel and performed other procedures to satisfy ourselves
                      as to the reliability and competence of the data produced by the
                      tests. In addition, we confirmed the validity of other data,
                      when appropriate, by reviewing supporting source documents.

                      The Department waived an exit conference.




___________________________________________________________________
Page 12                              Objective, Scope, and Methodology
Appendix 2


                                     PRIOR REPORTS

Office of Inspector General Reports

   •   Special Report on The Department's Unclassified Foreign Visits and Assignments
       Program (DOE/IG-0791, March 2008). The Department of Energy's (Department),
       Office of Inspector General (OIG) discovered that the National Nuclear Security
       Administration (NNSA) had not fully mitigated the risk of foreign nationals gaining
       unauthorized access to its unclassified Intranet. An incident involving cyber security
       occurred was noted because of this deficiency. Not all computers assigned to foreign
       nationals and assignees were properly installed with security features that would
       prevent one from circumventing security measures such as modifying log-on setting,
       loading unauthorized software, removing software, and changing systems. In addition,
       some foreign visitors and assignees had unsupervised use of their foreign government,
       university, or business laptops within laboratory facilities which had live Intranet
       connections.

   •   Audit Report on Management of the Department's Publicly Accessible Websites
       (DOE/IG-0789, March 2008). Our audit revealed that some of the Department's
       publicly accessible websites did not meet Federal accessibility requirements or
       contingency planning and emergency response best practices. In addition, content on
       publicly accessible web servers was not always controlled and reviewed periodically.
       This resulted in an additional eight instances that involved personally identifiable
       information (PII) being exposed to unauthorized or malicious sources. In addition, the
       majority of the organizations failed to implement contingency/emergency planning,
       provide accessibility to those with disabilities, and limit/disable unneeded computer
       services due to the lack of guidance from Headquarters and deficiencies in site-level
       management and control.

   •   Audit Report on The Department's Cyber Security Incident Management Program
       (DOE/IG-0787, January 2008). Our audit found that program elements and facility
       contractors had established and operated as many as eight independent cyber security
       intrusion and analysis organizations whose missions and functions were partially
       duplicative and not well coordinated. Sites could also choose whether to participate in
       network monitoring activities performed by the organizations. Furthermore, the
       Department had not adequately addressed related issues through policy changes, even
       though it had identified and acknowledged weaknesses in its cyber security incident
       management and response program.

   •   Inspection Report on Incident of Security Concern at the Y-12 National Security
       Complex (DOE/IG-0785, January 2008). An unclassified laptop computer was brought
       into Y-12's limited area without proper authorization and it was not detained by cyber
       security personnel. The written report for this incident was not completed within the 32
       two hour reporting requirement under the Department's Incidents of Security Concern
       Program. The investigation determined that 37 additional laptop computers may have

___________________________________________________________________
Page 13                                                  Prior Reports
Appendix 2 (continued)

      been improperly introduced into the Limited Area by Oak Ridge National Laboratory
      (ORNL) personnel in recent years. These incidents were not properly reported in a
      timely manner.

  •   Special Report on The Management Challenges at the Department of Energy (DOE/IG-
      0782, December 2007). Cyber security was identified as one of the management
      challenge areas due to several DOE OIG reviews which emphasized the need to
      improve the Department's overall cyber security program. Despite recent efforts and
      progress, the Department had not completed its complex-wide inventory for the
      information systems and certification and accreditation (C&A) of many systems was
      inadequate.

  •   Audit Report on the Continuity of Operations at Bonneville Power Administration
      (DOE/IG-0781, November 2007). Bonneville's continuity of operations capability was
      not fully compliant with Federal Preparedness Circular 65 (FPC 65) for all of its
      essential functions. Specifically, Bonneville's primary and alternate facilities for power
      scheduling were interdependent as well as in close proximity, therefore, were subject to
      the same hazards. In addition, Bonneville's plan to recover transmission scheduling
      from disruptions to its primary automated system relied in part on a manual process
      rather than a fully automated system as required by FPC 65.

  •   Evaluation Report on The Department's Unclassified Cyber Security Program - 2007
      (DOE/IG-0776, September 2007). Problems persisted with the certification and
      accreditation of Department's systems related to assessing risks and ensuring the
      adequacy of security controls. The Department had not established a complex-wide
      inventory system and a number of organizations still had not ensured their contingency
      plans are in working order. Additional deficiencies were identified that reduce the
      Department's ability to protect its computer resources from unauthorized actions, so the
      Department could not always ensure the personal information on agency systems was
      adequately protected. Therefore, the risk of compromise to the Department's
      information and systems remains higher than acceptable.

  •   Audit Report on Security Over Personally Identifiable Information (DOE/IG-0771, July
      2007). The Department had not fully implemented all protective measures
      recommended by the Office of Management and Budget (OMB) and required by the
      National Institute of Standards and Technology (NIST). In particular, we observed that
      sites reviewed had not identified information systems containing personally identifiable
      information (PII), or fully evaluated the risks of exposing PII stored in such systems;
      controls for securing remote access to site-level systems containing personal
      information had not been fully implemented; and sites had not identified mobile
      computing devices containing PII nor ensured that this information was encrypted as
      required by OMB. These problems occurred because Headquarters and site-specific
      policies did not address all OMB and NIST requirements. Even when policies were
      clear, programs and sites did not always enforce the requirements to ensure that all
      necessary controls were in place for protecting PII.



___________________________________________________________________
Page 14                                                  Prior Reports
Appendix 2 (continued)

  •   Audit Report on The National Nuclear Security Administration's Implementation of the
      Federal Information Security Management Act (DOE/IG-0758, February 2007). Cyber
      security weaknesses have been a continuing challenge for NNSA. Specifically, NNSA
      did not always properly implement its own guidance as well as Departmental and
      Federal cyber security requirements. In addition, NNSA had not performed regular
      monitoring activities essential to evaluating the adequacy of cyber security program
      performance. As a consequence, NNSA's unclassified information systems and
      networks and the data they contain remain at risk of being compromised, including the
      possible unlawful diversion of operational data, PII, or other critical information.

  •   Inspection Report on Excessing of Computers Used for Unclassified Controlled
      Information at the Idaho National Laboratory (DOE/IG-0757, February 2007).
      Personnel at Idaho National Laboratory (INL) had sold a computer containing
      unclassified controlled information that included personal information at a public
      auction in October 2004. When a new company was awarded a contract to manage
      INL, the Idaho Operations Office delayed incorporating updated Department directives
      and used existing internal policies and procedures for computer disposal during a 16-
      month period beginning in November 2004. INL did not have adequate policies and
      internal controls for excessing computers and other electronic memory devices to
      prevent the unauthorized dissemination of unclassified controlled information.

  •   Audit Report on Certification and Accreditation of Unclassified Information Systems
      (DOE/IG-0752, January 2007). Despite recent efforts by the Department to enhance
      cyber security guidance, many systems were not properly certified and accredited prior
      to becoming operational. For example, 9 of the 14 sites reviewed did not properly
      access security risks to their systems and did not adequately test and evaluate security
      controls. In many instances, senior agency officials accredited systems although
      required documentation was inadequate or incomplete, such as incomplete inventories
      of software and hardware included within defined accreditation boundaries. In
      addition, the Office of the Chief Information Officer and program elements did not
      adequately review completed activities for quality or compliance with requirements.

  •   Special Inquiry on Selected Controls over Classified Information at the Los Alamos
      National Laboratory (November 2006). Classified documents were found on a flash
      drive during a search by Los Alamos County Police at the home of a Los Alamos
      National Laboratory contractor employee. From this inquiry, we found that the security
      framework at the lab was seriously flawed. Contributing factors were that security
      policy in a number of key areas was non-existent, applied inconsistently, or not
      followed. In addition, monitoring by both Laboratory and Federal officials was
      inadequate; critical security functions were not adequately segregated; and, physical
      verification of the accuracy of security plans by Federal and Laboratory officials was
      not performed.




___________________________________________________________________
Page 15                                                  Prior Reports
Appendix 2 (continued)

Government Accountability Office Reports

   •   Information Security Progress Reported, but Weaknesses at Federal Agencies Persist
       (GAO-08-571T, March 2008).

   •   Information Security - Although Progress Reported, Federal Agencies Need to Resolve
       Significant Deficiencies (GAO-08-496T, February 2008).

   •   Information Security: Protecting Personally Identifiable Information (GAO-08-343,
       January 2008).

   •   Cybercrime: Public and Private Entities Face Challenges in Addressing Cyber Threats
       (GAO-07-705, June 2007).

   •   Information Security: Persistent Weaknesses Highlight Need for Further Improvement
       (GAO-07-751T, April 2007).

Office of Health, Safety and Security Reports

   •   Independent Oversight Classified and Unclassified Cyber Security Inspection of the
       Livermore Site Office and the Lawrence Livermore National Laboratory, June 2008.

   •   Independent Oversight Red Team Activity Report, 2007 Facility Representative
       Workshop, March 2008.

   •   Office of Independent Oversight Cyber Security Inspection of the Sandia Site Office and
       the Sandia National Laboratories (U), December 2007.

   •   Independent Oversight Inspection of Classified and Unclassified Cyber Security at the
       Nevada Site Office and Nevada Test Site, December 2007.

   •   Independent Oversight Inspection of Cyber Security at the U.S. Department of Energy
       Headquarters, October 2007.




___________________________________________________________________
Page 16                                                  Prior Reports
Appendix 3




___________________________________________________________________
Page 17                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 18                                         Management Comments
                                                             IG Report No. DOE/IG-0801

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
